U.S. Department of the Interior
Office of Inspector General




            AUDIT REPORT


     U.S. DEPARTMENT OF DEFENSE
           CONTRACT FUNDS,
      DEPARTMENT OF EDUCATION,
         GOVERNMENT OF GUAM

             REPORT NO.OO-I-172
                JANUARY2000
              United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240

                                                                         JAN IO 2ooo

                                   AUDIT REPORT
                                                                -,
Honorable Carl T.C. Gutierrez
Governor of Guam
Office of the Governor
Hagatfia, Guam 969 10

Subject: Audit Report on U.S. Department of Defense Contract Funds, Department of
         Education, Government ofGuam (NO. 00-I-172)

Dear Governor Gutierrez:

This report presents the results of our audit of U.S. Department of Defense contract funds
received by the Department of Education, Government of Guam. The objective of our audit
was to determine whether the Government of Guam complied with Federal and local laws
and procedures applicable to fi,mds received under its contracts with the U.S. Department of
Defense. The audit was requested by three former directors of the Guam Department of
Education.

BACKGROUND

Title 17, Section 3 101, of the Guam Code Annotated established the Department of
Education within the Government of Guam. Section 3 102 of the Code states, “The
Department shall be administered through the Territorial Board of Education which shall be
the governing and policy-making body of the Department.” Further, Section 3 102(a) of the
Code states that the Territorial Board of Education will “select and hire a Director and
Deputy Director of Education.” However, on March 25,1999, Guam Public Law 25-03 was
enacted, which eliminated the Board of Education. Chapter 4, Section 18, of the Public Law
states that “the governing of the Department of Education shall temporarily revert to [the
Governor of Guam] until further legislative action. The Board of Education currently in
place . . . shall cease to exist. [The Governor] shall not appoint a Board, but shall assume all
functions, powers, duties and responsibilities of the Board.” As a result of the change, on
March 3 1,1999, the contracts employing the Department of Education’s Director and Deputy
Director were terminated, and an Acting Director was appointed by the Governor.

During the period of fiscal years 1989 through 1997, the U.S. Department of Defense
executed three successive contracts with the Government of Guam for the Department of
Education “to provide public education services for Department of Defense dependents
residing on U.S. military installations in Guam.” Each contract provided for annual
payments to the Government of Guam based on a fixed cost for each military dependent
child who attended a Guam public school. The contracts required that the contract payments
be used to raise teacher qualifications, recruit teachers, improve curriculum and instruction,
provide staff development training, repair and maintain facilities, and perform other
educational functions. The third contract, which covered the period of fiscal years 1994
through 1998, stated that the Department of Defense would pay the Government of Guam
$5,920 per child based on an estimated enrollment of about 2,700 military dependent
children in Guam’s public schools.

In an April 23, 1999, memorandum for the record, the former Deputy Assistant Secretary of
Defense for Personnel Support, Families and EducatiGn’ stated. “In July 1997, the Assistant
Secretary of Defense . , . notified [the Guam Congressional Representative] that the
Department of Defense was canceling its contract with the government of Guam to provide
funds for the education of military children in Guam public schools effective September 30,
1997. Furthermore, [the Assistant Secretary of Defense] informed [the Congressional
Representative] that the Department of Defense would open its own school system on
Guam.” In the memorandum, the former Deputy Assistant Secretary further stated, “In
September 1997 I traveled to Guam to present a check for the final payment of the contract
($12,417,441.08) to [the Governor of Guam].”

 During the period of October 1, 1988, to January 15, 1997, the Government of Guam’s
Department of Defense Education Contract Office administered the U.S. Department of
Defense contract funds within the Department of Education. However, through Executive
Order 97-O 1, on January 15,1997, the Governor transferred the Contract Office to the Guam
Department of Administration. For fiscal year 1998, the Contract Office reported revenues
of $2 1.3 million (including the final contract payment of $12.4 million), expenditures of
$6.6 million, and transfers out of $13.3 million. For fiscal year 1999 (through December 3 1,
 1998), the Contract Office reported revenues of $75 1,042, expenditures of $1.1 million, and
transfers out of $880,753. During fiscal year 1999, the Contract Office had an Administrator
and 10 staff members and an operating budget of $660,000 and a Capital Improvement
Project budget of $7.7 million.

SCOPE OF AUDIT

The scope of the audit included a review of transactions related to Department of Defense
contract funds that occurred during fiscal years 1998 and 1999 (through December 3 1,1998).
To accomplish the audit, we reviewed pertinent records and interviewed officials of the


‘During the period of October 1993 to October 1998, the Deputy Assistant Secretary of Defense for
Personnel Support, Families and Education was responsible for Department of Defense education activities;
morale, welfare, and recreation programs; adult and continuing education programs; and family programs.
In November 1998, the Deputy Assistant Secretary of Defense was appointed to the position of Assistant
Secretary of the Navy for Manpower and Reserve Affairs.

                                                    2
 Government of Guam’s Department of Administration, Department of Defense Education
 Contract Office, Department of Education, Bureau of Budget and Management Research,
 Department of Public Works, and Waterworks Authority. We -also interviewed (by
 telephone) U.S. Department of Defense officials in Washington, D.C., and Okinawa, Japan,
 regarding the contracts with the Government of Guam.

Our review was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly, we
included such tests of records and other auditing procedures that were considered necessary
under the circumstances.

As part of our review, we evaluated the system of i&eternal controls related to the financial
and operational management of the contract funds by the Contract Office and by the
Department of Education to the extent that we considered necessary to accomplish the audit
objective. Based on our review, we determined that the Contract Office generally managed
the processing of purchase orders and invoices in compliance with the contract and
applicable regulations. However, we identified internal control weaknesses in the use of
contract funds by the Government of Guam and in the timely use of contract funds by the
Department of Education. These weaknesses are discussed in the Results of Audit section
of this report. Our recommendations, if implemented, should improve the internal controls
in these areas.

PRIOR AUDIT COVERAGE

Although the Office of Inspector General did not perform any audits of the Department of
Defense contracts with the Government of Guam during the past 5 years, prior reports were
issued as follows:

       - On March 15,1993, the U.S. Department ofthe Interior, Office of Inspector General,
issued the audit report “Selected Special Revenue Funds, Government of Guam”
(No. 93-I-706), which stated that the Department of Education (1) did not make timely use
of about $13 million of maintenance and repair funds received under the contracts and (2)
lost about $2 million in potential contract funds by not identifying all military dependent
students. Our current audit also disclosed that the Department of Education had not used
contract funds in a timely manner.

       - On January 20, 1995, the U.S. Department of Defense, Office of the Lnspector
General, issued the audit report “DOD [Department of Defense] Contracts With the
Department of Education, Government of Guam” (No. 95-082), which stated that the
Department of Education had made a concerted effort to use contract funds in a timely
manner and had efficiently expended contract funds specified for repair and maintenance
projects.



                                             3
       - An independent public accounting firm’s single audit reports for the Government of
 Guam for fiscal years 1996 and 1997 did not report any deficiencies in the Department of
 Education’s management of Department of Defense contract funds.                    _.


                               RESULTS OF AUDIT
Although the Government of Guam’s Department of Defense Education Contract Office used
contract funds under its control in conformance with the contract, the Government of Guam
did not ensure that contract funds transferred to the Public Service Recovery Fund and to the
Department of Education General Fund were used for contract purposes and in a timely
manner. The requirements for the use of Depart_ment of Defense contract funds were
contained in the 5-year contract dated September 30, 1993, between the U.S. Department of
Defense and the Government of Guam. However, the Government (1) assumed that after
fiscal year 1997 it no longer had to comply with the contract because the contract would not
be renewed: (2) needed the additional funds because of declining local revenues, and (3) did
not establish an adequate planning and monitoring system to ensure the effective use of the
contract funds. As a result, as of December 3 1, 1998, the Government had expended
$4.3 million, obligated $1.1 million, and retained an additional $802,8 10 for noneducational
purposes. In addition, the Department of Education used $35,075 for noneducational
purposes and did not use $3.5 million of contract funds in a timely manner.

Contract Requirements

Section B.2.c.2 of the contract dated September 30, 1993, between the Department of
Defense and the Government of Guam states that payments are made “subject to the
Department of Education compliance with the Section C, Statement of Work, and Section H,
Special Provisions. ” Section C of the contract states that “the Department of Education
agrees that it shall provide appropriate education services (grades kindergarten through 12)
for eligible DOD dependents in accordance with the Department of Education standards and
practices and the requirements set forth below [in the contract].” The remainder of Section C
defines the requirements for the Department of Education in the areas of employee
qualifications, recruitment of teachers, curriculum and instruction, performance evaluations
ofprofessional educators, staff development and inservice training, special education, capital
improvements, and repair and maintenance of facilities. Section H defines special
requirements related to the contract funds, including contract monitoring by Department of
Defense representatives, budgetary procedures, and use of funds.

During a September 1997 meeting with the Governor of Guam, the former Deputy Assistant
Secretary of Defense for Personnel Support, Families and Education presented a check for
$12.4 million to the Governor “to be used to benefit the Guam public schools.” Subsequent
to receiving the $12.4 million final contract payment, the Governor of Guam and the
Chairperson of the Board of Education entered into an agreement on November 2 1, 1997,
in which the final contract payment of $12.4 million was to be used as shown in Table 1.

                                              4
                 Table 1. Planned Uses of the Final Contract Payment

                                 DescriDtion                      Allbtment         _.
              Textbooks                                          $2,400,000
              Staff Development Training                           1,500,000
              High School Bleachers/Playground Equipment           1 ,ooo,ooo
                                                        _.
              Technology                                           1,800,000
              School Buses                                        2,532,OOO
             Dededo Middle School Library           _                68,000
             Infrastructure Support                               1,900,000
             Astumbo Recreational Facility                        1.200.000
                    Total Final Contract Payment                $12.400.000

However, as discussed in the paragraphs that follow, the funds were not used for the
purposes described in the November 2 1, 1997. agreement.

Department of Defense Contract Fund

During fiscal years 1998 and 1999 (through December 3 1, 1998), the Contract Office had
revenues totaling $22 million (including the $12.4 million final contract payment),
expenditures totaling $7.7 million, and transfers to other Government funds totaling
$14.2 million. According to Contract Office records, a total of 1,990 transactions n-ere
processed during this period. We selected a judgmental sample of 5 1 transactions, totaling
$7.9 million (expenditures of $1.8 million and transfers of $6.1 million), for testing to
determine whether the Contract Office had complied with contract provisions. We
determined that Contract Office expenditures were made for the purposes specified by the
contract. However, the amounts transferred to other Government funds were not used in
compliance with the contract or in a timely manner.

Public Service Recovery Fund

Through Executive Order 98- 12, on March 20,1998, the Governor of Guam established the
Public Service Recovery Fund, which was to be administered by the Department of
Administration. The Executive Order stated that “the Governor has been relieved of all
financial and contractual responsibilities to the Department of Defense under the agreement
and is solely responsible for determining the utilization of the remaining unexpended and
unobligated funds.” The Executive Order also stated that “various agencies of the
government of Guam have expended significant amounts of their own funding in support of
the educational system, without reimbursement, and , . . budget resources to these agencies
have been severely compromised by the effects of recent disasters and diminishing revenue
streams from lower business, resident, and visitor spending.” The Executive Order further

                                               5
 stated that “expenditures from the Public Service Recovery Fund shall be expended for the
 following purposes: equipment and contracts directly related to public service; facilities and
 infrastructure repair, improvement and development for the public’s -use and benefit; and
 reimbursement to autonomous agencies.”

On March 3 1, 1998, the Department of Administration transferred $7.5 million from the
Department of Defense Contract Fund to the Public Service Recovery Fund and then used
these monies to reimburse the Department of Public Works and the Guam Waterworks
Authority for noneducation expenses incurred by those agencies. According to documents
provided by the Contract Office Administrator, the transfers were made based on the
Government’s understanding that the requirements-of the contract had lapsed when the
contract was terminated. As a result, the Government of Guam used $5.4 million
($4.3 million expended and $1.1 million encumbered) and may use the remaining $802,810
in the Public Service Recovery Fund for noneducation purposes.

 The Contract Office Administrator stated that the contract fUncls wcrc transferred to the
 Public Service Recovery Fund as a result of the September 25, 1997, meeting between U.S.
 Department of Defense and Government of Guam officials. The Contract Office
 Administrator’s February 12, 1998, memorandum to the file on the results of the
 September 25, 1997, meeting states, “Upon presentation of the final check in the amount of
 $12,417,441.08 in September 1997 . . . the Deputy Assistant Secretary of Defense
 commented to the Governor that the contract was not being renewed.” The memorandum
 further stated that the Deputy Assistant Secretary of Defense told the Governor that “the
 expenditures of these funds were up to his [the Governor’s] discretion.” Based on this
 understanding, on February 18, 1998, the Contract Office Administrator issued a
memorandum to the Director ofthe Department OfAdministration, informing him that “since
the DOD [Department of Defense] contract between DOD and the Government of Guam has
been terminated, it would be up to the Governor to decide how the funds would best be
 used.” The Administrator subsequently told us that she had not been informed of how the
funds were expended once they were transferred from the Department of Defense Contract
Fund to the Public Service Recovery Fund. However, in a February 20, 1999, telephone
conversation, which was confirmed in an April 23, 1999, memorandum for the record. the
former Deputy Assistant Secretary of Defense for Personnel Support, Families and Education
told us that during the September 1997 meeting with the Governor of Guam, she presented
a check in the amount of $12.4 million to the Governor and “stressed that the money was to
be used to benefit the Guam Dublic schools.” (Emphasis added.) In the memorandum. the
former Deputy Assistant Secretary also stated, “The Governor discussed his desire to devote
part of the moneys to enhance technology in the schools. He also discussed construction
needs and other equipment needs for the school system.” In the memorandum, the former
Deputy Assistant Secretary further stated that “in February 1998, [an official of Guam’s
Contract Office] called me to ask that I approve a list of items as appropriate expenses for
the schools of Guam. I informed her that. with the susuension of the contract, the Governor
was charged with the allocation of the moneys for the benefit of the uublic schools on
Guam ” (Emphasis added.) Based on the Deputy Assistant Secretary’s statements. we
/
believe that the Department of Defense clearly intended that the $12.4 million be used for
educational purposes. Therefore, we concluded that the statements of Government of Guam

                                              6
officials that contract fi_mds could be used for purposes other than educational was not
supported.

Department of Administration records showed that, as of December 3 1, 1998, the Public
Service Recovery Fund had revenues totaling $8 million (the $7.5 million transfer from the
Department of Defense Contract Fund plus earned interest of $482,028), expenditures and
transfers out totaling $6.1 million, and unexpended funds totaling $1.9 million. We found
that the $6.1 million was used for operating expenses of the_,Department of Public Works
($3.3 million), transfers to the Guam Waterworks Authority ($1 million), and transfers to the
Department of Education ($1.8 million).

       Department of Public Works. The $3.3 mill&n expended for operating expenses of
the Department of Public Works was used for asphalt mix for road construction and repair
($2.5 million), fuel charges ($1,550), construction of a community gymnasium ($56,237),
salaries of employees of Public Works Highway Division ($726,959), and the rental of dump
trucks ($43,740). In our opinion, none of these expenses directly benefited the Guam public
schools, as required by the contract, and therefore were unallowable costs.

      Guam Waterworks Authority. The $1 million transferred to the Guam Water-orks
Authority was used to reimburse the Authority for costs it incurred for routine operations.
According to the Authority’s Director, the Authority needed the funds because of shortfalls
in local revenues and to recover costs incurred by purchasing water from the U.S. Navy water
system at a higher cost than what the Authority was able to bill its customers. However. the
Contract Office Administrator stated that the Authority’s original claim for reimbursement
was to recover the costs, totaling $8 15,972, of extending waterlines at nine public schools.
The Contract Office Administrator added that she had not been aware that the Authority was
paid $1 million to recover costs incurred in buying water. The Department of
Administration’s Federal Grants Supervisor, who authorized the transfer of the $1 million
to the Guam Waterworks Authority, stated that she requested that the Authority submit other
documents to support its reimbursement claim because the Guam General Fund had incurred
the cost of extending the waterlines at the public schools. In our opinion, the $1 million
transferred to the Guam Waterworks Authority was an unallowable cost because it was not
used to reimburse the General Fund for the cost of services provided to Guam's public
schools.

      Department of Education. Of the $1.8 million transferred from the Public Service
Recovery Fund to the Department of Education for “technology” purposes, only $4,075 was
not used for educational purposes in accordance with the contract provisions.

Department of Education General Fund

On December 12,1997, subsequent to the Department of Education’s November 2 1,1997,
agreement with the Governor, the Department of Administration transferred $4.9 million of
the $12.4 million final contract payment to the Department of Education General Fund to be
used for “textbooks, staff development training, and high school bleachers/playground
equipment.” On May 12, 1998, the Department of Administration transferred an additional

                                             7
   $1.8 million from the Public Service Recovery Fund to the Department of Education to be
   used for “technology.”

  According to Department of Education records, as of December 3 1,1998, about $2.9 million
  was expended and $348,688 was encumbered (obligated) in fourofthe eight categories listed
  in the November 1997 agreement, as shown in Table 2.


                           Table 2. Status of Contract Funds Transferred to
                             the Department of Education General Fund
                                        as of December 31,1998

                                    Nov. 1997           Transfers to
          Description               AItreement          Education         Expenditures       Encumbrances         Balances
Textbooks                             $2,400,000       $2,400,000            $2,400,000                   0                   0
Staff Development Training             1,500,000         1,500,000                45,437                  0       $ I ,454,563
High School
Bleachers/Playground
Equipment                              1 ,ooo,ooo        1 ,ooo,ooo              359,923        $348,688             291,389
Technology                             1,800,000*        1,800,000**              58,595                  0        1,741,405
School Buses                           2,532,000*                 0                     0                 0                   0
Dededo Middle School
Library                                   68,000*                 0                     0                0                    0
Infrastructure Support                 1.900,000*                 0                     0                0                    0
Astumbo Recreational
Facility                               1.200.000*                                                -..---A                      0
 Total Final Payment                $12.400.000        $6.700,000            $2.863.955         $348.688         $3.487,357

  *These five amounts, which totaled $7.5 million, were transferred on March 3 1, 1998, to the Public Service Recovery Fund
  instead of to the Department of Education General Fund.
  **The $1.8 million was subsequently transferred From the Public Service Recovery Fund to the Department of Education
  General Fund.



  Of the 277 transactions related to the expenditures of about $2.9 million, we selected a
 judgmental sample of 30 transactions, totaling $1.3 million, for testing to determine whether
 the Department of Education had used the finds as provided for in the Department of
 Defense contract and the agreement with the Governor of Guam. We found that only
 2 transactions, totaling $35,075, of the 30 tested were not for purposes intended by the
 contract and the subsequent agreement. One expenditure of $3 1,000 was for a noncontract-
 related off-island trip, and the other expenditure of $4,075 was for expenses of other
 Government agencies. According to the former Deputy Controller of the Department of
 Education, the former Director of Education had approved the use of contract funds in these
 two instances because the Department did not have other financial resources available to pay
 for these activities. The former Deputy Controller also stated that because of the

                                                             8
Department’s shortage of cash for payroll and other critical operating costs, the Department
used contract funds to relieve temporary cash flow shortages.

 We also found that, as of December 3 1, 1998, the Department of Education had controlled
$4.9 million for more than 12 months and $1.8 million for more than 7 months but had
expended only $2.9 million of the available contract funds. Of the remaining $3.8 million,
about $349,000 had been obligated and $3.5 million was available for contract-related
educational expenses. The former Deputy Controller stated that, as of April 2, 1999, the
Department of Education had not developed a detailed plan for using the remaining
$3.5 million other than for the general categories specified in the November 1997 agreement.
On June 2 1, 1999, the Acting Director of Education stated, “In general, there is a continuing
need for staff development training, supplies and equrpment, and technology throughout the
Department of Education.” In our opinion, the Department of Education should develop
plans and monitoring procedures to ensure that the available contract funds of $3.5 million
in the Department’s General Fund are used promptly to achieve the purposes for which they
were allotted, as defined in the November 1997 agreement with the Governor of Guam.

Recommendations

We recommend that the Governor of Guam:

       1. Instruct the Director of the Department of Administration to reimburse the
Department of Defense Contract Fund for the $4.3 million expended and the $1.1 million
obligated for noneducational purposes and for the interest of $482,028 earned on these funds
while in the Public Service Recovery Fund and to use the funds only for the educational
purposes defined in the Department of Defense contract.

      2. Instruct the Director of the Department of Education to reimburse the Department
of Defense account in the Department of Education General Fund for the $35,075 used for
noneducational purposes.

      3. Instruct the Director of the Department of Education to establish controls to
prohibit the Department from using Department of Defense contract funds for routine
Department of Education operations when regular operating funds are not available because
of cash flow shortages.

      4. Instruct the Director of the Department of Education to develop and implement
plans and a monitoring process for the timely use of the remaining $3.5 million of
Department of Defense contract funds.




                                             9
Governor of Guam Response and Office of Inspector General Reply

The October 15, 1999, response (Appendix 2) to the draft report fkom the Governor stated
that “the Government of Guam is compelled to dispute the Draft Audit findings and disagree
with all of the recommendations. Furthermore, the Government of Guam does not intend to
make any changes in the disposition of funds.” Therefore, we consider the four
recommendations unresolved (see Appendix 5).

The response further stated that “it was made clear” that as of September 1, 1997, the
Governor had “no further obligation to provide educational services” to Department of
Defense students. The response further stated that “lilt was also clearly understood that the
contract that had been entered into between the Government of Guam and the Department
of Defense to provide educational services was simply that, a contract to provide educational
services for which the Government of Guam would receive a dollar amount per student.”
Further, the response stated that “[tlhis was simply a service that DOD [Department of
Defense] agreed to pay for, and a service that was delivered fully and faithfully by the
Government of Guam until the contract concluded on September 1, 1997.”

In addition, the response stated that “a recent review of this contract by the Attorney General
of Guam concurs and supports my position.” The response also stated that in a letter dated
September 20,1999 (Appendix 3), the Guam Attorney General had requested that our office
provide the “legal basis” for the conclusions contained in our draft report. The Attorney
General stated in his letter that “there is no prospective language in the contract that would
allow it to be used to evaluate the use of any money transferred . . . subsequent to
September 1, 1997.” Further, the Governor’s response stated, “Finally, I again reiterate that
the $12.4 million was in fact, spent on education.”

As indicated in our response (Appendix 4) to the Attorney General’s letter, we believe, based
on the contract provisions and statements made by a Department ofDefense official, that the
$22 million (including the final $12.4 million payment) available pursuant to the contract
was to be used exclusively for educational purposes. However, as shown in our report, the
money was not used exclusively for this purpose. Therefore, because there is a significant
difference of opinion regarding how the $22 million (including the final $12.4 million
payment) should have been used, we will refer the report to the Contracting Offker of the
Department of Defense for a determination on the allowability of the questioned costs of
$5.4 million and for resolution of the matter.

Section 5(a) of the Inspector General Act (Public Law 95-452, as amended) requires the
Office of Inspector General to list this report in its semiannual report to the U.S. Congress.
In addition, the Office of Inspector General provides audit reports to the Congress.

In view of the above, please provide a response to this report by February 18,200O. The
response should be addressed to the Inspector General of the Department of Defense, and
a copy should be provided to our Pacific Office, 415 Chalan San Antonio, Suite 306,



                                              10
Tamuning, Guam 96911.      The response should provide the information requested in
Appendix 5.

                                           Sincerely,

                                       LLOYD
                                           Earl E. Devaney
                                           Inspector General

cc: Acting Director, Department of Education     _




                                         11
                                                                             APPENDIX 1

                                                                                    ..
               CLASSIFICATION OF MONETARY AMOUNTS


                                                Questioned        Funds To Be Put
                  Finding Area                   c o s t s * ‘,   To Better Use*

    Public Service Recovery Fund                $5,396,659             $802,810
    Department of Education General Fund          - 35.075            3.487.357

       Total                                    $5.43
                                                1 , 7 3 4            $4,290,167




*Amounts represent Federal fimds.




                                           12
                                                                                                                 AYPENUlX Z
                                                                                                                 Page 1 of 3




                                                  OFFICE OF THE GOVERNOR
                                                           GUAM




       OCT 15 1999
        Earl E. Devaney
        Inspector General
        U.S. Department of Interior
        Office of Inspector General
        1849 C. Street, N.W.; Mail Stop 5341
        Washington, D.C. 20240

        Dear Mr. Devaney,

        Thank you for this opportunity to respond to the Draft Audit Report on U.S. Department
        of Defense Contract Funds, Department of Education, Government of Guam dated
        August, 1999, number N-IN-GUA-004-97(E)-R.

       First, it is important to set this matter in its proper perspective. Throughout the period of
       the contract in which the Government of Guam provided educational services to
       Department of Defense (DOD) students -- up to and including September 1, 1997, every
       dime spent by the Department of Defense reached the DOD students. The fact that DOD
       paid any funds to the Government of Guam subsequent to September 1, 1997 does not
       diminish in any way the preceding statement. Simply put, the Government of Guam
       utilized local money for the services provided to the DOD students, and any money
       received after September 1, 1997, was simply final settlement for services that had been
       rendered in full to the DOD students.

       It is stated in the audit report, that three former directors of a politically embattled
       Department of Education motivated this audit. This I understand. What is beyond
       comprehension is the huge disparity that exists between the rationale of the audit report,
       and the legal analysis of the Attorney General of Guam as to the auditor’s
       characterization of my legal obligations with regards to the $12.4 million.

       During a meeting with representatives of DOD on September 25, 1997, I received the
       check for $12.4 million. At that time, it was made clear to me that as of September 1,
       1997, 24 days earlier, I had no further obligation to provide educational services to DOD
       students. It was also clearly understood that the contract that had been entered into
       between the Government of Guam and the Department of Defense to provide educational




                                                                13
Ricardo J. Bordallo Governor’s Complex   l   Post Oiiice Box 2950, Agana, Guam 96V32   l   16711472-8931   l   Fax (61])477-GUAM
                                                                                     APPENDIX 2
                                                                                     Page 2 of 3
Mr. Devaney - US Inspector General
October, 1999
Page 2

                                                                                       ..


services was simply that, a contract to provide educational services for which the
Government of Guam would receive a dollar amount per student. The measure of our
adherence to the DOD contract was in the education of the DOD students enrolled in the
system. This was simply a service that DOD agreed to pay for, and a service that was
delivered tilly and faithfUlly by the Government of Guam until the contract concluded on
September 1, 1997.
                                                    .
A recent review of this contract by the Attorney General of Guam concurs and supports
my position on this matter. I also understand that the Attorney General has requested a
response in writing from your office inquiring what legal basis your office relies upon to
reach the conclusions proposed in this Draft Audit. I might note that to date, your office
has not responded to the Attorney General, and therefore this letter must go without the
benefit of your answer.

In addition to the auditors’ reliance on an erroneous interpretation that the contract
somehow controls the subsequent expenditure of the $12.4 million, they asked the former
Deputy Assistant Secretary of Defense for Personnel Support, Families and Education -
Ms. Carloyn Beecrafi - if she did in fact authorize the Government of Guam to expend
this money in the manner that we did.

Witnesses present at the September 25, 1997 meeting between Ms. Beecraft, her stae
myself and my staff, clearly establish that in fact she did say that “the expenditure of
these fLnds were up to his [the Governor’s] discretion.” In this audit, however, Ms.
Beecrafi, two years later, contradicts her earlier public statement in a written
memorandum to the auditors. Even assuming for the sake of argument that the later
version of Ms. Beecraft’s representation is correct, where is the federal authority that
allows an administrator such as Ms. Beecraft to place enforceable conditions on an
amount such as $12 million simply through her oral statements?

Further in support of our position are written statements made on March 14, 1997 by Mr.
J.J. Swizewski, the DOD-DOE Contracting Officer, noting Part 43 of the Federal
Acquisition Regulation which specifies only Contracting Officers are empowered to
execute contract modifications on behalf of the Government. Subsequent correspondence
fiorn Mr. Swizewski in July of 1997 stated that services after September 1, 1997 are not
required under the contract due to the establishment of DOD schools.

Given these circumstances, we believe it is self-evident that the audit report arrives at its
conclusions unsupported by any legal argument and solely justified by the casual
comments of administrators acting beyond the scope of their authority.




                                              14
                                                                                     APPENDIX 2
                                                                                     Page 3 of 3
Mr. Devaney - US Inspector General
October, 1999
page 3




Therefore, the Government of Guam is compelled to dispute the Draft Audit findings and
disagree with all of the recommendations. Furthermore, the Government of Guam does
not intend to make any changes in the disposition of funds.

Finally, I again reiterate that the $12.4 million was in fact, spent on education.

very truly yours,                                     _




&Ck&/ . .
Governor of Guam




                                              15
                                                                                                                               APPENDIX 3
                                                                                                                               Page      1 of 2
Carl ?.C. Gutierrez                                                                                                           John F. Tarantino
Magaldhr                                                                                                                                Hinirat Abugao
GOVl?~llO~                                                                                                                           Attorney General

                                                                                                                               Michael C. Stern
Madeleine 2. Bordallo                                                                                                    Atidi Siundo. Mamprdsikiut
Ttriente Gubetnadom                                                                                                         Chief Deputy, Prosecution
Lt. Governor
                                                         Ufisinan HinirSt Abugao                                             Kathleen E. Maher
                                                                 Gushan                                                          Attidi Sigundo, Sibit
                                                                                                                                   Chief Deputy, Civil

                                                    Office of the Attorney General.
                                                                Guam


                                                                                        c


                                                                               September 20, 1999


             Earl E. Devaney
             Inspector General
             U.S. Department of Interior
             Office of Inspector General
             1849 C. Street, N.W.; Mail Stop 5341                     ’
             Washington, D.C. 20240


             Dear Mr. Devaney:

             Hafa Adai!

             I am in receipt of the U.S. Department of the Interior Office of Inspector General, Draft
             Audit Report, over your signature, entitled U.S. Department of Defense Contract Funds,
             Department of Education, Government of Guam, dated August 1999, N-lN-GUA-004-
             97(E)-R.
             In my capacity as the chief legal officer of the government of Guam, as provided for in 48
             U.S.C. §1421g(d)(l), I am reviewing this audit report in order to determine whether any
             action on the part of my office is warranted or in the alternative to issue a formal opinion.
             To that end I am requesting an explanation for certain matters contained in this draft audit
             report which I find troubling.
             The stated scope of the audit included a review of transactions that occurred during fiscal
             years 1998 and 1999 which are allegedly related to Department of Defense contract funds.




                             Suite   2-2OOE, Judicial Center Bldg., 120 Wear O’Brien Drive, Hagbtls. Guam U.S.A. 96910
                                         Phone: (671) 475-3324 Fax: (671) 472-2493 E-mail: law@)ns.gov.gu

                                                                          16
                                                                                        APPENDIX 3
                                                                                        Page 2 of 2


Under the results of audit, contained on page 4 of the draft audit report, it is stated in part
that:
                 “...the “Government of Guam did not ensure that contract                --
                funds transferred to the Public Service Recovery Fund and to
                the Department of Education General Fund were used for
                contract nurooses and in a timely manner. The requirements
                for the use of Department of Defense contract funds were
                contained in the 5-year contract dated September 30, 1993,
                between the U.S. Department of Defense and the Government
                of Guam.” (Emphasis added)
I find this language particularly troublesome becatise after reading the language of the
contract referred to above it appears to me that as of September 1, 1997, a full month before
the beginning of the 1998 fiscal year, the contract was no longer in effect. Additionally, there
is no prospective language in the contract that would allow it to be used to evaluate the use
of any money transferred from the Department of Defense to the Government of Guam
subsequent to September 1, 1997.
Further, there is no language in the contract that requires an accounting of how the money
is spent. The contract awarded to the Guam Department of Education for public education
services for Department of Defense dependents residing on U.S. military installations in
Guam is for the delivery of educational services, which were terminated on September 1,
1997. The money transferred to the Government of Guam subsequent to September 1, 1997
was not for any further performance but rather was a settling of accounts.
It is stated in the audit report that this audit was motivated by past directors of the
Department of Education and I take no issue with that. However, I am concerned that your
office would have difficulty understanding fundamental contract principles and use such a
faulty premise in order to issue a report critical of the Government of Guam.
Therefore, I am requesting that you take the time to address this matter and please show me
what it is that I may be missing in my analysis. It is my intent to determine whether any
action on the part of my office is warranted or in the alternative to issue a formal opinion
when the final draft audit report is published if the need for such an opinion is indicated.
Therefore your assistance would be appreciated.




                                                17
                                                                                        APPENDIX 4
                                                                                        Page 1 of 5

              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240

                                                                   DEC IO 19%

Honorable John F. Tarantino
Attorney General of Guam
Suite 2-200E, Judicial Center Building
120 West O’Brien Drive
Hagatia, Guam 969 10

Subject:     Draft Audit Report on U.S. Department of Defense Contract Funds,
             Department of Education, Government of Guam
             (Assignment No. N-IN-GUA-004-97-E)

Dear Mr. Tarantino:

This letter responds to your letter of September 20, 1999. In that letter, you requested an
explanation of certain conclusions set forth in the draft audit report. You also expressed
your disagreement with the following statement in the subject draft report:

          . . . the Government of Guam did not ensure that contract funds transferred
        II


        to the Public Service Recovery Fund and to the Department of Education
        General Fund were used for contract nurnoses and in a timely manner.”

I have set forth below our response to each of the comments you made about the above-
quoted sentence. Your specific comments on this statement and our replies are as follows:

COMMENT

Should the scope of our audit (fiscal years 1998 and 1999) be applied to the Department of
Defense contract, because, although the 5-year contract was originally intended to expire on
September 30, 1998, the Department of Defense did not exercise the final l-year option
period and suspended the contract effective September 1, 1997, “a full month before the
beginning of the 1998 fiscal year.”

RESPONSE

The Scope of Audit section of our audit report states that we would review transactions
occurring during fiscal years 1998 and 1999 relating to the use of contract funds that were
paid to the Government of Guam. This scope included the final payment of $12.4 million
from the Department of Defense. The check for $12.4 million was dated September 9,1997,
and was deposited by the Government of Guam on September 26,1997, prior to suspension
of the contract. The transactions charged against these funds that we reviewed were
                                                                                         APPENDIX 4
                                                                                         Page 2 of 5



 expended during fiscal years 1998 and 1999. The purpose of our review was to determine
 whether the funds were used for educational purposes, and we found no indication that
 suspension of the contract eliminated the original purpose and intent of the c&tract
 payments, including all prior payments received under the contract but not disbursed by the
 Government of Guam as of the date that the contract was suspended.

 COMMENT

 “There is no prospective language in the contract that would allow it to be used to evaluate
 the use of any money transferred . . . subsequent to September 1, 1997.”
                                                        *
 RESPONSE

 We believe that the contract provisions make it clear that funds paid pursuant to the contract,
including the $12.4 million final payment, were to be used for educational purposes.
Regardless of the fact that the contract was not renewed for another option term, the final
payment was still a payment made pursuant to the contract to fulfill the Department of
Defense’s contractual obligation. The parties did not enter into any separate settlement-type
agreement in connection with the final payment, which might have altered the terms of the
original agreement. Accordingly, notwithstanding the characterization of this payment as a
“settling of accounts,” the expenditure of these funds was subject to the same terms and
conditions as all the other funds provided under the contract. Also, there is no language in
the contract to suggest that funds provided under the contract could be used for anything
other than educational purposes upon suspension of the contract. Specifically, Paragraph
B.2.c(2) of the contract states:

        Subject to the Department of Education compliance with Section C.,
        “Statement of Work”, and Section H., “Special Provisions”, the Department
        of Education agrees that it shall receive the payment under contract line item
        0001, in accordance with the following schedule for students enrolled in
        School Year (SY) 1993- 1994, adjust up or down depending on whether more
        or fewer than the estimated 2700 eligible dependent children receive
        educational services under this contract period of performance.

Additionally, Paragraphs B.3.c, B.4.c B.5.c and B.6.c state that, with respect to school years
 1994-1995, 1995-1996, 1996-1997, and 1997-1998, respectively, “All other terms and
conditions of clause B-2 Payments [B.2, “Payments,” of the contract] remain unchanged and
in effect.” Finally, under Section H, Paragraph 5, the Department of Education agreed to
ensure that “funds made available under this contract are used to supplement and increase
the level of funding expended for the education of eligible DOD dependents attending schools
operated by the Department of Education and that payments under this contract serve as a
separate and net additional payment.”




                                              2
                                                  19
                                                                                           APPENDIX 4
                                                                                           Page 3 of 5



COMMENT

 “There is no language in the contract that requires an accounting ofhow the money is spent.”

RESPONSE

 Section H, “Special Contract Requirements,” required the Department of Education to
 “establish written fiscal and funding accounting procedures that will ensure the proper
disbursement of and accounting for DOD [Department of Defense] funds paid to the
Department of Education” and “provide a full accounting of all funds received and disbursed
under this contract. . . ninety (90) days after notification . . . of the availability of funds and
every ninety (90) days thereafter during the term of this contract.” Section H also states that
“[n]one of the funds obligated under this contract shall be used for the performance of
construction of facilities” and that “[o]bligated funds shall be expended consistent with the
terms and conditions described herein.” Therefore, we believe that the intent of the contract
was for funds provided by the Department of Defense to be used to improve the public
school system on Guam and for the accounting of those funds.

COMMENT

“The money transferred to the Government of Guam subsequent to September 1,1997, was
not for any further performance but rather was a settling of accounts.”

RESPONSE

While we acknowledge that a Department of Defense official told a Government of Guam
official that she was no longer “in a position to approve or disapprove” the Governor’s
actions with respect to the use of contract funds after suspension of the contract in September
1997, we believe that it was the intent of the Department of Defense that the $12.4 million
provided as a final payment under the contract be used for educational purposes. In that
regard, in an April 23, 1999, Memorandum for the Record (Enclosure), Ms. Carolyn H.
Becraft, who, in September 1997, was the Deputy Assistant Secretary of Defense for
Personnel Support, Families and Education and was responsible for Department of Defense
educational programs, stated:

       In September 1997 I traveled to Guam to present a check for the final
       payment of the contract ($12,417,441.08) to Governor Gutierrez. I stressed
       that the monev was to be used to benefit the Guam public schools. The
       Governor asked if the check concluded the contract. I stated that it did and
       that the Department of Defense (D OD) had met its contractual obligations.
       I said that no further DOD funds for local schools would be forthcoming. At
       this point, RADM Janczak indicated that this did not prelude Guam from
       applying for IMPACT AID for the military dependents remaining in the
       government of Guam schools as this was a Department of Education
       program, not a DOD program. The Governor discussed his desire to devote
                                                                                         APPENDIX 4
                                                                                         Page 4 of 5



        part of the money to enhance technology in the schools. He also discussed
        construction needs and other equinment needs for the school svstem. . , .

        Later, in February 1998, Ms. Rosie Tainatongo [the Government of Guam
        Department of Defense Funds Administrator] called me to ask that I approve
        a list of items as appropriate expenses for the schools of Guam. I informed
        her that, with the suspension of the contract, the Governor was charged with
        the allocation of the moneys for the benefit of the public schools of Guam,
        and that I was not in a position to approve or disapprove his actions.
        [Emphasis added.]

COMMENT

Concern was expressed that the Office of Inspecror General “would have difficulty
understanding fundamental contract principles and use such a faulty premise in order to issue
a report critical of the Government of Guam.”

RESPONSE

As explained in our responses above, we do not believe that our understanding of the
contract or the premise of our report is “faulty.” The purpose of our audit report was to
assess the level of financial accountability, management controls, and compliance with
applicable laws and regulations by the auditee. If, in our professional judgment, we believe
that a deficiency exists in any of these areas, we are obligated by generally accepted auditing
standards, the Inspector General Act of 1978, and (in the case of the insular areas) the Insular
Areas Act of 1982 to report those deficiencies and to offer recommendations for
improvement. We believe that the subject audit report when issued in final form will fulfill
our audit oversight responsibilities in this regard.

If you have any questions regarding this matter, please contact Mr. Arnold E.
van Beverhoudt, Jr., Director of Insular Area Audits, at (340) 774-8300 or Mr. Peter J.
Scharwark, Jr., Senior Auditor, Pacific Office, at (671) 647-6060.

                                                  Sincerely,


                                          P(-Q-c
                                           Earl E. Devaney
                                           Inspector General

Enclosure

cc: Honorable Carl T.C. Gutierrez, Governor of Guam
    Ms. Carolyn H. Becraft, Assistant Secretary of the Navy,
       Manpower and Reserve Affairs, Washington, D.C. 20250- 1000


                                              4
                                               21
                                                                               24PPENDIX 4
                                                                               Page 5 of 5




MEMORWJXM FOR THE RECORD                                   -.
FROM: CwolynBbcnR




In Stptanbur 1997 I tnival6d to Guam to premt a cheek fkx the final payment of the
conmct S(12,417,441.08) to &vmor Guitiorrw I rmwd &at the money wu ta be
ru’6d Co b&t the OUM pub!ic s&o&. The Governor rjcbd Uhhe c&k oqq+xkd the
sas$&. 1 dtstd that it did md th the ~~~SIMII~ of DefaW (DOD) bU met ~LS
contractual obl&&ms. t aaid that no further DOD fkndr for local ochoolt would k
forthcomIng. At Thor polnf UDM Jueak iadtcatcd thaf this did not pmclude chum
fkm app!yi~@ fk IMPACT AID for the military dapeodm% raminia~ in the
~owmxmnr af Guam whool~ M tir wci a Doputolear olEducrboa program, not L DOD
progmm. TIw Govgnor dkuwd his deeIn to devote put of the monqm TV enhanw
L#hnalogy In WI bchools. He &o discwai constructions ncd~~ aud other quipma
needs fbr the schbal system,



LIWL in FUary 1998, ML ltotic Takatongo caki me to a& dm 1 appmva a lirt of
Itemn) pb ppprqria!s cwpcases for the schools of Gwn. I inlomed ha thrrt, with the
rurpmSi;vn of bre eontmc(, 416 Govomot was chupcd With rhc do&on of the moneys
for the bcnofit of the pubk g$hoo!s on Gum, and tbu 1 WY not in a pktion ~0 ~rovc
or diqprovr hh rchonr.




                                           22
                                                                         APPENDIX 5


      STATUS OF AUDIT REPORT RECOMMENDATIONS



Finding/Recommendation
       Reference           Status                       Action Required

     1,2,3, and4         Unresolved.        Provide a response to the Contracting
                                            Officer of the Department of Defense,
                                            with a copy of the response to our Pacific
                                            Office. The response should include a
                                            rationale for the Government of Guam’s
                                            nonconcurrence with the
                                            recommendations.




                                       23
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL                                  -.


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html
                                               *

                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    I-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2120



                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (671) 647-6060
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Numbers
      l-800-424-508 1
      TDD l-800-3 54-0996

FTS/Commercial Numbers
    (202) 208-5300
    TDD (202) 208-2420




                                  n
                                  Q r
